HHS/OIG, Audit -"Los Angeles County's Efforts to Account for the Use of Public Health Preparedness and Response to Bioterrorism Program Funds and Monitoring of Subrecipients,"(A-09-03-01022)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Los Angeles County's Efforts to Account for the Use of Public Health
Preparedness and Response to Bioterrorism Program Funds and Monitoring of Subrecipients," (A-09-03-01022)
October 1, 2003
Complete
Text of Report is available in PDF format (3.26 mb). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine whether the Los Angeles County
Department of Health Services (LA County):  (i) properly recorded, summarized
and reported bioterrorism preparedness transactions by specific focus area
designated in the cooperative agreements, (ii) established controls and procedures
to monitor subrecipients expenditures of Centers for Disease Control and Prevention
(CDC) funds; and (iii) used bioterrorism program (Program) funds to supplant
funds previously provided by other sources.  We found that:  (i)
LA County did not properly report Program expenditures to CDC for the two reporting
periods ended August 30, 2000 and 2001, (ii) had not conducted on site monitoring
reviews because the subrecipients were generally in the planning stage; and
(iii) had not used Program funding to supplant existing State or local funds.  We
recommended that LA County:  (i) submit final Financial Status Reports
that include actual expenditures with no outstanding obligations for reporting
periods ended August 30, 2000 and 2001 and ensure that, in the future, final
Financial Status Reports are submitted for reporting periods required by CDC;
and (ii) implement the subrecipient monitoring procedures as planned.  LA
County officials concurred with our recommendations.